U.S. Department of Justice
Office of the Inspector General




Report to Congress on Implementation
of Section 1001 of the USA PATRIOT Act
    (as required by Section 1001(3) of Public Law 107-56)




                                         March 2014
        Section 1001 of the USA PATRIOT Act (Patriot Act), Public Law 107-56,
directs the Office of the Inspector General (OIG) of the U.S. Department of
Justice (DOJ or Department) to undertake a series of actions related to claims
of civil rights or civil liberties violations allegedly committed by DOJ employees.
It also requires the OIG to provide semiannual reports to Congress on the
implementation of the OIG’s responsibilities under Section 1001. This report,
the 24th since enactment of the legislation in October 2001, summarizes the
OIG’s Section 1001-related activities from July 1, 2013, through December 31,
2013.


I. INTRODUCTION

      The OIG is an independent entity within the DOJ that reports to both the
Attorney General and Congress. The OIG’s mission is to investigate allegations
of waste, fraud, and abuse in DOJ programs and personnel, and to promote
economy and efficiency in DOJ operations.

      The OIG has jurisdiction to review programs and personnel in all DOJ
components, including the Federal Bureau of Investigation (FBI), the Drug
Enforcement Administration (DEA), the Federal Bureau of Prisons (BOP), the
Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF), the U.S. Marshals
Service (USMS), and the U.S. Attorneys’ Offices. 1

       The OIG consists of the Immediate Office of the Inspector General and
the following divisions and offices:

       •   Audit Division conducts independent audits of Department
           programs, computer systems, and financial statements.

       •   Evaluation and Inspections Division conducts program and
           management reviews that involve on-site inspection, statistical
           analysis, and other techniques to review Department programs and
           activities and make recommendations for improvement.

       •   Investigations Division investigates allegations of bribery, fraud,
           abuse, civil rights violations, and violations of other criminal laws and
           administrative procedures that govern Department employees,
           contractors, and grantees.


       1  The OIG has authority to investigate allegations of criminal wrongdoing or
administrative misconduct by any Department employee, except for “allegations of misconduct
involving Department attorneys, investigators, or law enforcement personnel, where the
allegations relate to the exercise of the authority of an attorney to investigate, litigate, or
provide legal advice." 5 U.S.C. App. 3 § 8E(b)(2)-(3).



Office of the Inspector General, U.S. Department of Justice                         Page 1
      •   Oversight and Review Division blends the skills of attorneys,
          investigators, and program analysts to investigate or review high
          profile or sensitive matters involving Department programs or
          employees.

      •   Management and Planning Division provides planning, budget,
          finance, personnel, training, procurement, automated data
          processing, computer network communications, and general support
          services for the OIG.

      •   Office of General Counsel provides legal advice to OIG management
          and staff. In addition, the office drafts memoranda on issues of law;
          prepares administrative subpoenas; represents the OIG in personnel,
          contractual, and legal matters; and responds to Freedom of
          Information Act requests.

       The OIG has a staff of more than 400 employees, about half of whom are
based in Washington, D.C., while the rest work from 16 Investigations Division
field and area offices and 6 Audit Division regional offices located throughout
the country.


II. SECTION 1001 OF THE PATRIOT ACT

      Section 1001 of the Patriot Act provides the following:

             The Inspector General of the Department of Justice shall
             designate one official who shall ―

             (1)   review information and receive complaints alleging abuses
                   of civil rights and civil liberties by employees and officials
                   of the Department of Justice;

             (2)   make public through the Internet, radio, television,
                   and newspaper advertisements information on the
                   responsibilities and functions of, and how to contact, the
                   official; and

             (3)   submit to the Committee on the Judiciary of the House
                   of Representatives and the Committee on the Judiciary of
                   the Senate on a semi-annual basis a report on the
                   implementation of this subsection and detailing any
                   abuses described in paragraph (1), including a description
                   of the use of funds appropriations used to carry out
                   this subsection.



Office of the Inspector General, U.S. Department of Justice                Page 2
III. CIVIL RIGHTS AND CIVIL LIBERTIES COMPLAINTS

       Section 1001 requires the OIG to “review information and receive
complaints alleging abuses of civil rights and civil liberties by employees and
officials of the Department of Justice.”

      The OIG’s Investigations Division manages the OIG’s Section 1001
investigative responsibilities. The two units with primary responsibility for
coordinating these activities are Operations Branch I and Operations Branch II,
each of which is directed by a Special Agent in Charge and two Assistant
Special Agents in Charge (ASAC). 2 In addition, these units are supported by
Investigative Specialists and other staff assigned to the Investigative Support
Branch, who divide their time between Section 1001 and other responsibilities.

       The Investigations Division receives civil rights and civil liberties
complaints via mail, e-mail, telephone, and facsimile. Upon receipt, Division
ASACs review the complaints and assign an initial disposition to each matter,
and Investigative Specialists enter the complaints alleging a violation within the
investigative jurisdiction of the OIG or another federal agency into an OIG
database. Serious civil rights and civil liberties allegations relating to actions
of DOJ employees or contractors are typically assigned to an OIG Investigations
Division field office, where special agents conduct investigations of criminal
violations and administrative misconduct. 3 Occasionally, complaints are
assigned to the OIG’s Oversight and Review Division for investigation.

       Given the number of complaints OIG receives compared to its limited
resources, the OIG does not investigate all allegations of misconduct against
DOJ employees. The OIG refers many complaints involving DOJ employees to
internal affairs offices in DOJ components such as the FBI Inspection Division,
the DEA Office of Professional Responsibility, and the BOP Office of Internal
Affairs. In certain referrals, the OIG requires the components to report the
results of their investigations to the OIG. In most cases, the OIG notifies the
complainant of the referral.

      Many complaints the OIG receives involve matters outside its
jurisdiction, and when those matters identify a specific issue for investigation,

        2 These units also coordinate the OIG’s review of allegations of misconduct by

Department employees: the Operations Branch I has primary responsibility for matters
involving the BOP, USMS, and the U.S. Attorney’s Offices; the Operations Branch II has
primary responsibility for matters involving the FBI, DEA, and ATF.
       3   The OIG can pursue an allegation either criminally or administratively. Many OIG
investigations begin with allegations of criminal activity but, as is the case for any law
enforcement agency, do not result in prosecution. When this occurs, the OIG may continue the
investigation and treat the matter as a case for potential administrative discipline. The OIG’s
ability to handle matters criminally or administratively helps to ensure that a matter can be
pursued administratively even if a prosecutor declines to prosecute a matter.



Office of the Inspector General, U.S. Department of Justice                        Page 3
the OIG forwards them to the appropriate investigative entity. For example,
complaints of mistreatment by airport security staff or by the Border Patrol are
sent to the Department of Homeland Security OIG. The DOJ OIG also has
forwarded complaints to the Offices of Inspectors General at the Department of
Health and Human Services, the Department of Veterans Affairs, and the
Department of Education. Allegations related to the authority of a DOJ
attorney to litigate, investigate, or provide legal advice are referred to the DOJ
Office of Professional Responsibility. Allegations related solely to state and
local law enforcement or government officials that raise a federal civil rights
concern are forwarded to the DOJ Civil Rights Division.

       When an allegation received from any source involves a potential
violation of federal civil rights statutes by a DOJ employee, the OIG discusses
the complaint with the DOJ Civil Rights Division for possible prosecution. In
some cases, the Civil Rights Division accepts the case and requests additional
investigation by either the OIG or the FBI. In other cases, the Civil Rights
Division declines prosecution and either the OIG or the appropriate DOJ
internal affairs office reviews the case for possible administrative misconduct.

   A. Complaints Processed During This Reporting Period

      Between July 1, 2013 and December 31, 2013, the period covered by this
report, the OIG processed 525 new civil rights or civil liberties complaints. 4

      Of these complaints, 471 did not fall within the OIG’s jurisdiction or did
not warrant further investigation. The vast majority (411) of these complaints
involved allegations against agencies or entities outside the DOJ, including
other federal agencies, local governments, or private businesses. When
possible, the OIG referred those complaints to the appropriate entity or advised
complainants of the entity with jurisdiction over their allegations. Some
complaints (60) raised allegations that were not suitable for investigation by
the OIG and could not be referred to another agency for investigation, generally
because the complaints failed to identify a subject or agency.

      The OIG found that the remaining 54 of the 525 complaints it received
involved DOJ employees or DOJ components and included allegations that
required further review. The OIG determined that 46 of these complaints
raised management issues generally unrelated to the OIG’s Section 1001 duties
and, consequently, referred these complaints to DOJ components for
appropriate handling. Examples of complaints in this category included
allegations by federal prisoners about the general prison conditions, and by
others that the FBI did not initiate an investigation into particular allegations.

         4 These complaints include all matters in which the complainant made any mention of

a civil rights or civil liberties violation, even if the allegation was not within the OIG’s
jurisdiction.



Office of the Inspector General, U.S. Department of Justice                       Page 4
      The OIG identified a total of 8 complaints warranting further
investigation to determine whether Section 1001-related abuses occurred. The
OIG investigated 2 of the complaints and referred the other 6 complaints to the
BOP or DEA for further investigation. The next section of this report describes
the substance of these 8 complaints. Notably, none of the complaints
processed during this reporting period specifically alleged misconduct by DOJ
employees relating to the use of authorities contained in the Patriot Act.

      The following is a synopsis of the new complaints processed during this
reporting period involving DOJ employees or components, including allegations
requiring further review:


      Complaints processed                               525

      Complaints not within OIG’s
      jurisdiction or not warranting further review      471

      Total complaints within OIG’s
      jurisdiction warranting review                      54

      Management issues referred to
      DOJ components for handling                         46

      Possible Section 1001 complaints
      warranting investigation by OIG                         2

      Possible Section 1001 complaints
      warranting investigation by DOJ components              6


   B. Section 1001 Complaints

      1. Investigations Opened During This Reporting Period

         During this reporting period, the OIG opened 2 Section 1001-related
         investigations, one of which remains pending. The OIG also referred 6
         Section 1001-related complaints to DOJ components for investigation:
         5 to the BOP, the investigations of which remain pending; and 1 to
         the DEA, the investigation of which has been completed. The OIG has
         requested that, upon completion of the investigation of each referred
         complaint, BOP provide the OIG a copy of its investigative report.




Office of the Inspector General, U.S. Department of Justice           Page 5
         a. Continuing OIG Investigation

            •   Six BOP inmates alleged that a correctional officer referred to
                the inmates as rats and implied that they deserved to be killed;
                poured oats into their property bags, causing rats to raid the
                bags; disposed of their personal property, including religious
                items; and placed inappropriate photographs inside a Koran.
                The inmates further alleged that the correctional officer made
                disrespectful noises and jokes outside the room where they
                were praying. One inmate alleged that the correctional officer
                encouraged him to listen to an evangelical Christian radio
                station.

         b. Completed OIG Investigation

            •   Four Muslim BOP inmates alleged that during the month of
                Ramadan, a cook supervisor refused to provide them with an
                appropriate meal on two occasions and verbally abused the
                inmates by threatening to starve them and shoot his AR-15
                rifle. The OIG interviewed the four inmates, who maintained
                their initial allegations. However, they made conflicting
                statements about the cook supervisor’s intent in stating that he
                would shoot his rifle. Two inmates believed he wanted to harm
                Muslim inmates, one inmate did not, and one inmate believed
                the cook supervisor was referring to hunting. In a compelled
                interview with the OIG, the subject acknowledged one occasion
                when he denied a particular meal to Muslim inmates because it
                was not on the planned menu and he had not been notified that
                the meal was authorized. He otherwise denied withholding food
                from Muslim inmates and said that he strictly follows the
                approved menu. The Assistant Food Services Administrator
                confirmed there was an occasion when she authorized a meal
                for Muslim inmates that was not on the planned menu without
                notifying the cook supervisor that she had done so. The cook
                supervisor further denied threatening any inmate, saying he
                was going to starve any inmate, making derogatory comments
                about Muslim inmates, and disobeying or ignoring a directive
                from a supervisor. The OIG also interviewed several other
                employees, all of whom stated they had not witnessed the cook
                supervisor display abusive or threatening behavior toward
                Muslim inmates or fail to perform his duties. The OIG did not
                find sufficient evidence to corroborate the allegations and closed
                its investigation.




Office of the Inspector General, U.S. Department of Justice             Page 6
         c. Continuing BOP Investigations

            •   An inmate alleged that, based on racial animus, a BOP
                employee made disrespectful and highly offensive comments
                that other inmates could hear in an effort to humiliate and
                provoke the inmate. The inmate also alleged that the employee
                refused to report an injury to the inmate’s wrists caused by
                handcuffs.

            •   An inmate alleged that two correctional officers singled out four
                Muslim inmates for discriminatory actions such as cell searches
                and the confiscation and mishandling of religious materials.
                The inmate further alleged that the officers made false
                statements about the Muslim inmates to non-Muslim inmates
                in an effort to incite violence between the two groups.

            •   Two inmates alleged that three correctional officers have
                harassed and disrespected Muslim inmates by conducting
                retaliatory searches of their cells and persons, intimidating
                them during prayer time, and attempting to deny them access
                to religiously appropriate meals.

            •   An inmate alleged that a correctional officer made derogatory
                racial and religious statements about Muslims and arbitrarily
                refused to allow inmates to attend a special Muslim service.
                The inmate further alleged that the officer taunted the
                complainant about religious matters, made false allegations
                against the complainant, and confiscated his ID, which resulted
                in the inmate not being able to participate in programs or
                services.

            •   An inmate alleged that a chaplain denied him and other Muslim
                inmates basic rights in violation of BOP policy, such as being
                able to pray at job sites and participating in religious rituals.

         d. Completed DEA Investigation

            •   A citizen alleged that when DEA agents arrested her husband at
                their place of business, the agents stepped on her husband’s
                prayer mat. When her husband asked the agents not to step on
                the prayer mat, the agents allegedly stepped on it again and
                wiped their shoes on it. The complainant further alleged that
                the agents told them that they view every Muslim as a terrorist.
                When contacted by the DEA, the complainant stated that she
                had nothing to add to her initial complaint. The DEA
                interviewed all of the agents involved and all denied making any


Office of the Inspector General, U.S. Department of Justice            Page 7
                anti-Islamic statements. One agent admitted to inadvertently
                stepping on the prayer mat but stated that he did not realize
                what it was. The DEA determined that the allegations were not
                substantiated and closed its investigation.

      2. Pending Investigations Opened During Previous Reporting
         Periods

         a. Complaints Referred to BOP

            The OIG referred the following 5 complaints to the BOP for
            investigation during a prior reporting period; the investigations
            remain open. The OIG has requested that BOP provide a copy of
            its investigative report upon completion of the investigation of each
            referred complaint.

            •   A BOP inmate alleged that a BOP Intelligence Research
                Specialist discriminated against him based on his religion. The
                inmate alleged that the employee referred to a Muslim prayer in
                a derogatory manner, mocked the traditional Muslim greeting,
                and referred to Muslim inmates as “terrorists” and
                “fundamentalists.” The inmate also alleged that the employee
                has repeatedly called him “Osama bin Laden” and mocked him
                for wearing a beard.

            •   A BOP inmate alleged that several correctional officers referred
                to him using a racial and ethnic slur, and threatened to kill him
                because he asked why his food tray was not delivered on time.

            •   A BOP inmate alleged that a correctional officer openly mocked
                the Islamic faith and interfered with Muslim inmates practicing
                their religion. The inmate alleged that the correctional officer
                threatened to take disciplinary action against him if he
                performed the Muslim call to prayers, or prayed with or at the
                same time as other Muslims.

            •   A BOP inmate alleged that after he filed a grievance against a
                BOP chaplain for allegedly interfering with his right to practice
                the Islamic faith, the chaplain then accused the inmate of
                “starting a terrorist cell,” resulting in the inmate being placed in
                segregated housing. The inmate also alleged that after filing
                another grievance alleging retaliation, he was again sent to
                segregated housing. Additionally, the inmate alleged that after
                an internal investigation at the prison determined that the
                allegations against him were false, the BOP took no action




Office of the Inspector General, U.S. Department of Justice               Page 8
                against the staff and instead transferred the inmate twice,
                leaving him thousands of miles from his family.

            •   A BOP inmate alleged that a correctional officer used profanity
                towards inmates and treated black Muslim inmates harshly
                because of their religious beliefs. The inmate also alleged that
                BOP staff intentionally destroyed his written correspondence.

      3. Previously Opened Investigations Completed During This
         Reporting Period

         The OIG completed its investigation of 1 Section 1001-related matter
         opened in a prior period. Additionally, the BOP completed
         investigations of 4 Section 1001-related complaints that were referred
         by the OIG in prior periods. Upon completion of the investigation of
         each referred complaint, the BOP provided the OIG a copy of its
         investigative report.

         a. OIG Investigation

            •   A Muslim BOP inmate alleged that four BOP food service
                employees discriminated against and threatened him because of
                his religion by warning him that he and other “terrorist”
                inmates could be harmed in the prison chapel, expressing their
                desire for “terrorists” at the facility to be killed, joking about
                searching him for bombs during his pat downs, and telling him
                he would be denied work privileges unless he shaved off his
                beard and denounced Islam. The OIG interviewed the four food
                service employees, all of whom denied the inmate’s allegations.
                One of the employees stated that the inmate told her he was
                having problems with a cook supervisor, who the inmate said
                was calling him a terrorist, but that the inmate later told her
                the problem had been resolved. The cook supervisor specifically
                denied referring to the inmate as a terrorist and the other
                allegations against him. Two of the employees, including the
                cook supervisor, further stated that the complainant was denied
                a promotion because he had been caught stealing food from the
                cafeteria. The OIG determined the allegations were not
                substantiated and closed its investigation.

         b. BOP Investigations

            •   A BOP inmate alleged that a BOP chaplain was “anti-Muslim”
                and that the chaplain directed him to leave the chapel in the
                middle of Muslim services, denied him access to the Muslim
                service for three weeks, denied him lunch during Ramadan, and



Office of the Inspector General, U.S. Department of Justice             Page 9
                denied him a religious diet. According to the inmate, he
                conducted a hunger strike for 18 days until he was transferred
                to another facility, but was transferred back to the same facility
                19 days later, where he alleged the chaplain’s discrimination
                continued. When contacted by BOP investigators, the inmate
                repeated his allegations and prepared an affidavit, but refused
                to sign it. The BOP interviewed the chaplain, who stated that
                she had once asked the inmate to leave the chapel during
                Muslim services because he refused to sign the attendance
                roster as required. She further stated that she was
                subsequently unable to allow him to attend prayer services
                based on his continued refusal to sign the attendance roster,
                but that Muslim inmates who complied with regulations were
                allowed access to the chapel. The BOP investigation determined
                that the inmate received Kosher meals and found no evidence
                that the chaplain had violated the inmate’s religious rights or
                denied him a religious diet. The BOP concluded the allegations
                were not substantiated and closed its investigation.

            •   A BOP inmate alleged that, after he and other Muslim inmates
                completed their prayers, a correctional officer told him that the
                inmates would receive incident reports because “terrorists” were
                not allowed to pray and lacked rights. The correctional officer
                allegedly also characterized the inmates as “future Taliban
                members.” During an interview with the BOP, the subject
                correctional officer stated that he filed incident reports on the
                inmates because they had engaged in group prayer outside of
                the chapel, which is prohibited by BOP policy. The officer
                denied making the alleged derogatory statements. A second
                correctional officer stated that he witnessed the incident and
                corroborated the subject officer’s version of events. The BOP
                determined that the allegations were not substantiated and
                closed its investigation.

            •   An inmate alleged that a BOP correctional officer harassed
                Muslim inmates and interfered with their participation in
                religious services, including by denying them access to the
                cellblock to perform cleansing rituals prior to prayer services.
                The inmate further alleged that the correctional officer made
                hostile and harassing sexual comments to the inmates and
                touched them in an inappropriate manner. Subsequently, the
                inmate’s cellmate submitted an identical letter of complaint
                against the subject officer, which he had signed but later
                admitted to the BOP that he did not write. When interviewed by
                the BOP, the subject correctional officer specifically denied all
                allegations against him. No other witnesses were identified by


Office of the Inspector General, U.S. Department of Justice             Page 10
                BOP. The BOP investigation further determined that inmates
                had access to a washroom in the chapel where they could
                cleanse themselves prior to prayers, and therefore it was not
                necessary for them to return to the cellblock for this purpose.
                The BOP determined that the allegations were not substantiated
                and closed its investigation.

            •   A BOP inmate alleged that a correctional officer was passing out
                Ramadan meals without bread. When several inmates asked
                the correctional officer to call food service for the bread, he
                responded by expressing unwillingness to accommodate the
                religious needs of the Muslim inmates. The inmate also alleged
                that the correctional officer refused to give him his mail. The
                inmate declined to provide an additional statement to BOP
                investigators. The BOP interviewed the subject correctional
                officer, who stated he did not recall the alleged incident relating
                to the food trays of Muslim inmates and stated that he would
                have contacted Food Service to correct such an issue if it had
                been brought to his attention. The correctional officer also
                denied expressing reluctance to accommodate the religious
                needs of Muslim inmates and further denied refusing to give the
                inmate complainant his mail. The BOP determined that the
                allegations were not substantiated and closed its investigation.


IV. OTHER ACTIVITIES RELATED TO POTENTIAL CIVIL RIGHTS
    AND CIVIL LIBERTIES ISSUES

       The OIG conducts other reviews that go beyond the explicit requirements
of Section 1001 in order to implement more fully its civil rights and civil
liberties oversight responsibilities. The OIG has completed or is conducting
several such reviews that relate to the OIG’s duties under Section 1001. These
reviews are discussed in this section of the report.

   A. Review of the Department’s Use of Material Witness Warrants

       The OIG is reviewing the Department’s use of the material witness
warrant statute, 18 U.S.C. § 3144, which provides for the arrest and detention
of a person if his testimony “is material in a criminal proceeding, and if it is
shown that it may become impracticable to secure the presence of the person
by subpoena.” With a particular focus on post-September 11 terrorism cases,
the OIG is evaluating whether the statute has been used in an arbitrary,
overbroad, or otherwise abusive manner. We are also examining whether the
information presented to the courts to justify the detention of particular
witnesses fairly reflected the underlying information known to the Department
and the FBI at the time; whether procedural safeguards have provided


Office of the Inspector General, U.S. Department of Justice              Page 11
meaningful protections to detained witnesses; and whether the conditions
under which selected witnesses were confined were consistent with relevant
statutes, regulations, and rules.

   B. Review of the FBI’s Use of National Security Letters, Section 215
      Orders, and Pen Register and Trap-and-Trace Authorities under the
      Foreign Intelligence Surveillance Act from 2007 through 2009

       The OIG is examining the FBI’s use of national security letters (NSL) and
Section 215 orders for business records. Among other issues, this review is
assessing the FBI’s progress in responding to the OIG’s recommendations in its
2007 and 2008 reports on the FBI’s use of NSLs and Section 215 authority,
and in its 2010 report on the FBI’s use of exigent letters and other informal
requests for telephone records. A focus of this review is the NSL subsystem, an
automated workflow system for NSLs that all FBI field offices and Headquarters
divisions have been required to use since January 1, 2008, and the
effectiveness of the subsystem in reducing or eliminating noncompliance with
applicable authorities. The current review is also examining the number of
NSLs issued and Section 215 applications filed by the FBI between 2007 and
2009, and any improper or illegal uses of these authorities. In addition, the
review is examining the FBI’s use of its pen register and trap-and-trace
authority under the Foreign Intelligence Surveillance Act.

   C. Audit of the FBI’s Management of Terrorist Watchlist Nominations
      and Encounters with Watchlisted Subjects

      The OIG is continuing its audit of the FBI’s management of terrorist
watchlist nominations. The objectives are to assess the impact on the FBI’s
watchlisting system of the attempted terrorist attack on an airplane on
December 25, 2009, and to evaluate the effectiveness of initiatives implemented
by the FBI between 2009 and 2012 to ensure the accuracy, timeliness, and
completeness of the FBI’s watchlisting practices, including watchlist
nominations and removals.

   D. Audit of the Department’s Use of and Support for Unmanned Aircraft
      Systems

       The OIG issued an interim report on the Department’s domestic use of
unmanned aircraft systems (UAS), commonly referred to as “drones,” as well as
its support and provision of UAS to local law enforcement agencies and non-
profit organizations. As of May 2013, the FBI, ATF, DEA, and USMS reported
spending approximately $3.7 million on acquiring small UAS (weighing up to
55 pounds) for testing or use, with the FBI accounting for over 80 percent of
this amount.

      While both the FBI and ATF have standard operating procedures
regarding approval to operate UAS, they did not believe that there was any


Office of the Inspector General, U.S. Department of Justice           Page 12
practical difference between how UAS collect evidence through aerial
surveillance as compared to manned aircraft. However, a consistent
Department policy specific to UAS may be merited in light of the unique
capability of small UAS to maneuver covertly in areas where individual
expectations of privacy are not clear or well-defined and considering the
trending technological capabilities of UAS for extended operations.

       In addition, the OIG reported that the Office of Justice Programs (OJP)
and the Office of Community Oriented Policing Services (COPS) have awarded
approximately $1.2 million to seven local law enforcement agencies and non-
profit organizations to purchase small UAS for testing or use. However, OJP
and COPS need to enhance their efforts to monitor UAS awards to ensure
recipients comply with Federal Aviation Administration regulations. Further,
the Department’s law enforcement agencies were largely unaware of UAS
acquired through Department awards. The interim report provided eight
recommendations to the Department to consider UAS-specific policies, enhance
monitoring of UAS awards, and improve coordination between award recipients
and Department law enforcement components. The Department agreed with
the recommendations.

       The OIG is continuing its audit of the Department’s use of UAS. This
ongoing audit will assess the Department’s domestic and international use of
UAS owned or controlled by a third party, and any applicable Department
policies, guidelines, controls, or restrictions related to receiving surveillance
support from UAS owned or controlled by a third party.


V. EXPENSE OF IMPLEMENTING SECTION 1001

      Section 1001 requires the OIG to include in this report “a description of
the use of funds appropriations used to carry out this subsection.”

       During this reporting period, the OIG spent approximately $517,649 in
personnel costs, $2,000 in travel costs, and $100 in miscellaneous costs, for a
total of $519,749 to implement its responsibilities under Section 1001. The
total personnel and miscellaneous costs reflect the time and funds spent by
OIG special agents, attorneys, auditors, inspectors, program analysts, and
paralegals who have worked directly on investigating Section 1001-related
complaints, conducting special reviews, implementing the OIG’s responsibilities
under Section 1001, and overseeing such activities.




Office of the Inspector General, U.S. Department of Justice              Page 13
